U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Mike Finnin Motors, Inc. v. United States, No. 21-233
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 11,
2021. The government’s response is now due, after one extension, on October 18, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 5, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0233
MIKE FINNIN MOTORS, INC. ET AL.
USA

ANTHONY T. CASO
CONSTITUTIONAL COUNSEL GROUP
174 W. LINCOLN AVENUE
#620
ANAHEIM, CA 92805
916-601-1916
ATCASO@CCG1776.COM
HARRY W. ZANVILLE
10740 EL MARBEA LANE
LA MESA, CA 91941
619-400-7164
HWZLAW@GMAIL.COM

